Lo
I

C@OCKLE

Le g al B rie fs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-97

MASSACHUSETTS LOBSTERMEN’S
ASSOCIATION, ET AL.,
Petitioners,

v.
WILBUR ROSS, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 31st day of August, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF FOR AMICI CURIAE UTAH COUNTIES AND UTAH
REPRESENTATIVES IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have
been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:

IVAN L. LONDON BARBARA A. SMITH
BRYAN CAVE LEIGHTON Counsel of Record

PAISNER LLP STEVEN J. ALAGNA
1700 Lincoln Street BRYAN CAVE LEIGHTON
Suite 4100 PAISNER LLP
Denver, CO 80203 211N. Broadway, Suite 3600
(303) 861-7000 St. Louis, MO 63102

(314) 259-2000

barbara.smith@belplaw.com

Counsel for Amici Curiae

Subscribed and sworn to before me this 3 Ist day of August, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

errr] Kone Q.Llaos? Qndeae-he. Obl

Notary Public Affiant 40084

My Comm. Exp. September 5, 2023

 

 
 

Attorneys for Petitioners

Jonathan Calvin Wood
Counsel of Record

Pacific Legal Foundation (202) 888-6881
3100 Clarendon Bivd., Suite 610
Arlington, VA 22201-5330

jwood@pacificlegal.org

Party name: Massachusetts Lobstermen's Association, et al.

 

Attorneys for Respondents

Jeffrey B. Wall
Counsel of Record

Acting Solicitor General 202-514-2217
United States Department of Justice

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Ross, Wilbur, et al.

 
